<html>
<title> - REBALANCING THE CARBON CYCLE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                      REBALANCING THE CARBON CYCLE

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2006

                               __________

                           Serial No. 109-264

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                     U.S. GOVERNMENT PRINTING OFFICE
45-346 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
JOHN M. McHUGH, New York             BRIAN HIGGINS, New York
PATRICK T. McHENRY, North Carolina   TOM LANTOS, California
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
BRIAN P. BILBRAY, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
              Dave Solan, Ph.D., Professional Staff Member
                          Lori Gavaghan, Clerk
           Shaun Garrison, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2006...............................     1
Statement of:
    Marland, Gregg, Ecosystems Science Group, Environmental 
      Sciences Division, Oak Ridge National Laboratory; Steven C. 
      Wofsy, Abbott Lawrence Rotch Professor of Atmospheric and 
      Environmental Chemistry, Harvard University; and Daniel A. 
      Lashof, science director, Climate Center, Natural Resources 
      Defense Council............................................    76
        Lashof, Daniel A.........................................   110
        Marland, Gregg...........................................    76
        Wofsy, Steven C..........................................    97
    Stephenson, John B., Director, Natural Resources and 
      Environment, Government Accountability Office; Dr. Roger C. 
      Dahlman, co-chair, Interagency Carbon Cycle Working Group, 
      Climate Change Science Program; and Stephen D. Eule, 
      director, U.S. Climate Change Technology Program...........    17
        Dahlman, Dr. Roger C.....................................    39
        Eule, Stephen D..........................................    53
        Stephenson, John B.......................................    17
Letters, statements, etc., submitted for the record by:
    Dahlman, Dr. Roger C., co-chair, Interagency Carbon Cycle 
      Working Group, Climate Change Science Program, prepared 
      statement of...............................................    42
    Eule, Stephen D., director, U.S. Climate Change Technology 
      Program, prepared statement of.............................    55
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   138
    Lashof, Daniel A., science director, Climate Center, Natural 
      Resources Defense Council, prepared statement of...........   112
    Marland, Gregg, Ecosystems Science Group, Environmental 
      Sciences Division, Oak Ridge National Laboratory, prepared 
      statement of...............................................    78
    Stephenson, John B., Director, Natural Resources and 
      Environment, Government Accountability Office, prepared 
      statement of...............................................    19
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    14
    Wofsy, Steven C., Abbott Lawrence Rotch Professor of 
      Atmospheric and Environmental Chemistry, Harvard 
      University, prepared statement of..........................    99


                      REBALANCING THE CARBON CYCLE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2006

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell Issa 
(chairman of the subcommittee) presiding.
    Present: Representatives Issa, and Watson.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Tom Alexander, counsel; Dave Solan, Ph.D., 
and Ray Robbins, professional staff members; Joe Thompson, GAO 
detailee; Alexandra Teitz, minority counsel; Shaun Garrison, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Issa. Good afternoon. The ranking member will be here 
shortly and will give her opening statement when she arrives, 
and at that point we will also have a quorum. However, 
according to our rules, we can begin. She is on her way.
    We can begin now, which means we can get past my painful 
opening statement and on to yours.
    The administration's release of the U.S. Climate Change 
Technology Program's strategic plan on September 21st of this 
year and the Government Reform Committee hearing on technology 
research titled ``Do We Need a `Manhattan Project' for the 
Environment?'' are just two very recent examples of how climate 
change is being addressed by the Federal Government and this 
Congress. Notwithstanding thousands of studies and the 
politicization of this issue on both sides of the aisle, the 
central problem is a simple one: humans, and our advanced 
societies emit more carbon dioxide into the atmosphere than can 
be processed by natural systems. The question that we must 
answer, then, is how to best address/solve this imbalance in 
the flow of carbon between the Earth, atmosphere, and oceans.
    From my point of view, this is an engineering problem with 
two basic solutions: we can emit less carbon dioxide by burning 
less fossil fuels; and we can, during this interim, capture and 
store excess carbon that results from burning carbon fuels. I 
have become a strong believer that on the first part of the 
equation we have an absolute mandate to restore and increase 
our nuclear power industry as a major part of the solution to 
the imbalance of the carbon cycle, and this is why I held a 
hearing last week about the progress by the Department of 
Energy on Next Generation nuclear plants.
    Current plans to construct new nuclear plants are not 
enough, first of all, because they are Generation III or 
Generation III+. It is important that Next Generation nuclear 
plants be designed, studied, prototyped, and completed because 
of the tremendous potential for zero emission electricity and, 
most of all, the production of hydrogen for transportation and 
use by the industrial sector. Together, electricity and 
transportation alone account for about 69 percent of U.S. 
carbon dioxide emissions.
    This hearing will explore Federal funding, scientific 
research, and technology development related to the carbon 
cycle and discuss what we do and do not know about the carbon 
cycle and the strengths and weaknesses of different 
technologies to reduce carbon emissions.
    Today, on our first panel, the Government Accountability 
Office will detail Federal funding for climate change science, 
technology, and emission reduction programs. Officials from the 
U.S. Climate Change Science Program and U.S. Climate Change 
Technology Program will discuss Federal science and technology 
programs related to the carbon cycle.
    Our second panel includes carbon cycle experts from Oak 
Ridge National Laboratory, Harvard University, and the Natural 
Resources Defense Council, who will discuss what we do or do 
not know about the carbon cycle, the potential significance of 
changes in the carbon cycle, and the strengths and weaknesses 
of different technologies--and I repeat, the strengths and 
weaknesses of these different technologies--to reduce carbon 
emissions.
    Today we welcome on our first panel of witnesses Mr. John 
B. Stephenson, Government Accountability Office; Dr. Roger C. 
Dahlman, Climate Change Science Program; and Mr. Stephen D. 
Eule, Climate Change Technology Program.
    I would also like to introduce at this time and swear in, 
since we are all here, the second panel: Dr. Gregg Marland, of 
the Oak Ridge National Laboratory; Dr. Steven C. Wofsy of 
Harvard University; and Dr. Daniel Lashof of the Natural 
Resources Defense Council.
    I look forward to your testimony, and I ask unanimous 
consent, since we do have a reporting quorum here now, that the 
briefing memo prepared by the subcommittee staff be inserted 
into the record, as well as all relevant materials.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.001
    
    [GRAPHIC] [TIFF OMITTED] T5346.002
    
    [GRAPHIC] [TIFF OMITTED] T5346.003
    
    [GRAPHIC] [TIFF OMITTED] T5346.004
    
    [GRAPHIC] [TIFF OMITTED] T5346.005
    
    [GRAPHIC] [TIFF OMITTED] T5346.006
    
    [GRAPHIC] [TIFF OMITTED] T5346.007
    
    [GRAPHIC] [TIFF OMITTED] T5346.008
    
    [GRAPHIC] [TIFF OMITTED] T5346.009
    
    [GRAPHIC] [TIFF OMITTED] T5346.010
    
    Mr. Issa. And then I am going to deviate from the order 
just for a moment to give the gentlelady an opportunity to 
settle in. I ask that all those who will testify or who will 
provide assistance to those testifying on questions and answers 
please rise and take the oath, as required by the committee 
rules.
    [Witnesses sworn.]
    Mr. Issa. The record will show that all answered in the 
affirmative.
    And with that, I take great pleasure in yielding to the 
gentlelady from California, Ms. Watson, for her opening 
remarks.
    Ms. Watson. Mr. Chairman, thank you for convening today's 
hearing, and I especially want to commend you on your 
timeliness on addressing an issue that can have a long lasting 
impact on our Nation. This hearing addresses the issues that 
the public needs to know regarding the science of the carbon 
cycle. With the threat of global warming on the rise, Congress 
needs to pay attention, deep attention, to this issue.
    Carbon serves as one of the most essential elements on 
Earth and is the principal building block for organic 
compounds. The flow of carbon throughout the atmosphere is one 
of the most complex and important global cycles. Unfortunately, 
this vital element and its cycles are out of balance. As a 
result, carbon dioxide levels in the atmosphere are higher than 
they have been for 650,000 years, and are still on the rise. 
Human activities are releasing carbon dioxide into the 
atmosphere at a rapid pace, causing the atmosphere to trap heat 
and thereby rapidly warming our planet. This ongoing 
environmental problem must be addressed.
    I understand that witnesses today will discuss the 
administration's response to global warming and discuss the 
research and technologies that could help reduce greenhouse 
emission gases and new international initiatives for research 
and technology. These projects are very important because 
greenhouse gas emissions are on the rise every day. In fact, it 
is estimated that actual emissions will rise by an additional 
14 percent, which is almost the projected rate of business-as-
usual emissions increase.
    There is overwhelming evidence of the urgency of the threat 
of global warming. The administration needs to take immediate 
action to protect our Nation. In the year 2001, the President 
stated that carbon dioxide is not a pollutant while questioning 
the reality of global warming. The President also withdrew the 
United States from the Kyoto Protocol, which is an 
international agreement to limit the emissions of global 
warming pollution. These actions would seem to indicate that 
the President does not consider this to be a serious issue.
    Mr. Chairman, the time is now for us to put global warming 
at the forefront of our agenda. Complacency now will only 
necessitate more drastic and, hence, more expensive reductions 
in the future. So I look forward to the testimony from our 
witnesses today, and I hope that we will be able to take this 
threat of global warming very seriously, because inadequate 
preparation can have a drastic impact on the environmental 
safety of the American people.
    So I yield back and I thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.011
    
    [GRAPHIC] [TIFF OMITTED] T5346.012
    
    [GRAPHIC] [TIFF OMITTED] T5346.013
    
    Mr. Issa. I thank the gentlelady.
    As you can see, there is no shortage of a belief that 
dealing with the excess carbon emitted into the atmosphere is 
important on this committee. On a bipartisan basis we will 
continue to address it in this and the next Congress, 
regardless of conflicts among some about the impact of global 
warming.
    And, with that, I would like to recognize Mr. Stephenson 
for his opening remarks.

 STATEMENTS OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; DR. ROGER C. 
  DAHLMAN, CO-CHAIR, INTERAGENCY CARBON CYCLE WORKING GROUP, 
CLIMATE CHANGE SCIENCE PROGRAM; AND STEPHEN D. EULE, DIRECTOR, 
             U.S. CLIMATE CHANGE TECHNOLOGY PROGRAM

                STATEMENT OF JOHN B. STEPHENSON

    Mr. Stephenson. Thank you, Mr. Chairman. We are here today 
to discuss two GAO reports relevant to today's hearing. One 
report deals with the billions of dollars the Federal 
Government annually spends on research and other activities, 
and the other report deals with two voluntary programs that are 
key components of the administration's efforts to reduce 
emissions of carbon dioxide and other greenhouses gases.
    First, our report on climate spending showed that 14 
Federal agencies have provided billions of dollars for climate 
change activities. OMB, at the direction of Congress, annually 
reports on expenditures for these activities in four broad 
categories: one, science, which includes research to better 
understand climate change; two, technology, which includes the 
development and deployment of technologies to reduce greenhouse 
gas emissions or increase energy efficiencies; three, 
international assistance, which helps developing countries to 
address climate change; and, four, tax expenditures, which are 
Federal income tax provisions that grant preferential tax 
treatment to encourage emission reduction, such as credits for 
purchasing clean fuel burning vehicles.
    In analyzing overall Federal climate change funding, we 
found that OMB reported that climate change funding more than 
doubled, from $2.4 billion in 1993 to $5.1 billion in 2004, 
with almost all of this increase in real or inflation-adjusted 
dollars occurring in technology. However, it was difficult for 
us to determine if this was a real or a definitional increase 
because of numerous changes in reporting format from year to 
year without adequate explanation. We found that in some cases 
new accounts were added and the definitions of existing 
accounts expanded to include more activities.
    For example, a $152 million NASA research program to reduce 
emissions in aircraft was included for the first time in 2003. 
In addition, we found that over 50 percent of the increase in 
technology funding was the result of the Department of Eenergy 
expanding the definition of two accounts to include over $500 
million in nuclear research programs, programs that this 
administration considers part of climate change but that the 
previous administration did not.
    We made several recommendations to improve the clarity and 
usefulness of these climate change spending reports that OMB 
agreed with and plans to incorporate in future reports. 
Nevertheless, these reports are based on individual agency 
spending priorities merely rolled up into a single report by 
OMB.
    While we have not formally reviewed either the Climate 
Change Science Program or the just released Climate Change 
Technology Program, we think that if these programs are to be 
successful, it will be important to clearly articulate the 
relationship between the Government's $5 billion investment 
portfolio and the goals of both programs. Moreover, we think a 
funding mechanism will need to be established to ensure that 
individual agency investment decisions reflect these goals and 
priorities.
    For our other report we examined two voluntary programs 
announced by the President in February 2002 aimed at securing 
private sector agreements to voluntarily reduce greenhouse gas 
emissions: EPA's Climate Leaders Program and DOE's Climate 
VISION Program. At the time of our report, 74 companies and 15 
trade groups were participating in one program or the other. In 
general, participants are expected to set emission reduction 
goals, measure and track emissions, and annually report 
progress against goals.
    At the time of our study, about half of the participants 
had established goals, but few had begun to measure and track 
emissions or annually report progress. In addition, it will be 
difficult for EPA and DOE to determine the success of these 
programs in terms of emission reductions because of overlap 
with other programs and the difficulty in accounting for 
reductions that would have occurred anyway because of rising 
energy prices or other factors.
    We concluded that EPA and DOE needed to do more to 
encourage progress under both programs by, among other things, 
developing a system for tracking participants' progress in 
completing key steps associated with the program and 
establishing a formal policy for actions to be taken if 
participants are not progressing as expected.
    Both DOE and EPA agreed with our recommendations, but we 
have not yet done any followup work to determine the extent to 
which they have been implemented.
    Mr. Chairman, that concludes a summary of my prepared 
statement. I would be happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.014
    
    [GRAPHIC] [TIFF OMITTED] T5346.015
    
    [GRAPHIC] [TIFF OMITTED] T5346.016
    
    [GRAPHIC] [TIFF OMITTED] T5346.017
    
    [GRAPHIC] [TIFF OMITTED] T5346.018
    
    [GRAPHIC] [TIFF OMITTED] T5346.019
    
    [GRAPHIC] [TIFF OMITTED] T5346.020
    
    [GRAPHIC] [TIFF OMITTED] T5346.021
    
    [GRAPHIC] [TIFF OMITTED] T5346.022
    
    [GRAPHIC] [TIFF OMITTED] T5346.023
    
    [GRAPHIC] [TIFF OMITTED] T5346.024
    
    [GRAPHIC] [TIFF OMITTED] T5346.025
    
    [GRAPHIC] [TIFF OMITTED] T5346.026
    
    [GRAPHIC] [TIFF OMITTED] T5346.027
    
    [GRAPHIC] [TIFF OMITTED] T5346.028
    
    [GRAPHIC] [TIFF OMITTED] T5346.029
    
    [GRAPHIC] [TIFF OMITTED] T5346.030
    
    [GRAPHIC] [TIFF OMITTED] T5346.031
    
    [GRAPHIC] [TIFF OMITTED] T5346.032
    
    [GRAPHIC] [TIFF OMITTED] T5346.033
    
    Mr. Issa. Thank you, Mr. Stephenson.
    And I now ask unanimous consent that all statements be 
placed in the record, along with any other submissions from any 
of the panelists.
    Without objection, so ordered.
    Dr. Dahlman.

               STATEMENT OF DR. ROGER C. DAHLMAN

    Dr. Dahlman. Mr. Chairman and members of the subcommittee, 
thank you very much for the opportunity to appear before you 
today and to report on the Federal Carbon Cycle Research 
Program. This research is an element of the Climate Change 
Science Program and it is coordinated by one of its working 
groups, the Carbon Cycle Interagency Working Group. I am co-
chair of that working group. Mr. Ed Sheffner, who is seated in 
the second row behind me, is the other co-chair. He is from the 
National Aeronautics and Space Administration and I am from the 
Department of Energy.
    As I breeze through my statement today, I will cite 
references to relevant pages of the written testimony so that 
everyone can perhaps follow along with more detail.
    My testimony focuses on the interagency program that 
implements the carbon cycle research element of the Climate 
Change Science Program strategic plan. There is a reference to 
the strategic plan in the testimony. This strategic plan guides 
the research of the interagency carbon cycle program and we 
follow it very closely.
    The science panel of this hearing will point out that not 
all CO<INF>2</INF> emissions remain in the atmosphere and there 
is a large net exchange of CO<INF>2</INF> between the 
atmosphere and oceans and land. The net exchange of carbon from 
the atmosphere into the ocean and land on a global scale 
involves a large number of processes and properties, and, 
accordingly, the U.S. Government supports an aggressive multi-
and inter-agency research program to better understand the 
quantities and uncertainties of the fluxes, properties, 
processes, and numerous components of the carbon cycle.
    The research results are providing new knowledge about 
contemporary changes in carbon sinks and the results are 
important for projecting future atmospheric CO<INF>2</INF> 
change and the influence on climate. The program is also 
developing tools for measuring and modeling changes in carbon 
sinks, and it provides a scientific foundation to support 
greenhouse gas management strategies.
    The Carbon Cycle Research Program is described in the 
strategic plan and there are six questions that guide the 
research. These six questions are on page 3 of the testimony. 
Briefly, the first question focuses on North American carbon 
sources, sinks, and processes. The North American Carbon 
Program, and Dr. Wofsy's testimony provide snapshots of some of 
the scientific results from this program. The second question 
focuses on ocean carbon sources and sinks.
    Currently, these are two high priority activities of the 
integrated Carbon Cycle Research Program. The next two 
questions address the management of carbon sources and sinks at 
different scales. The fifth question addresses the science 
needed for future projections of atmospheric CO<INF>2</INF>, 
and the last question deals with scientific research needed for 
managing components of the carbon cycle.
    I want to emphasize that these questions have been 
carefully defined, extensively reviewed, and vetted with the 
carbon cycle science community. They have been discussed with 
stakeholders and are the key guideposts for implementing the 
integrated research program.
    Briefly, the Carbon Cycle Interagency Working Group [CCIWG] 
is a cooperative venture and it coordinates and integrates the 
research across agencies. It has responsibility for 
coordinating solicitations and reviews of research proposals 
for implementing targeted research and for providing an 
interface with the scientific community and for updating 
assessments of research needs and priorities. It also 
identifies new interagency research activities.
    On page 5 of the testimony there is a list of 10 Federal 
agencies and departments that participate in this Interagency 
Working Group.
    I want to briefly mention a number of activities that are 
carried out by this Interagency Program. These are not all-
inclusive, but are representative of the kind of work that this 
cross-agency program supports.
    The first item, of course, is the coordination of the 
carbon cycle research on page 5 of the testimony. The CCIWG 
coordinates research among its participating agencies, 
leverages efforts and avoids duplication, and enhances the 
overall scientific findings and products. The coordination 
builds on unique agency capabilities and resources. For 
example, I want to cite a combination of AmeriFlux observations 
from a program supported by DOE, NASA's GLOBALVIEW observations 
of carbon dioxide in the atmosphere, including platform 
observation and instrumentation; and NASA's observation 
capability from space. The integration of all of those 
activities led to a better understanding and quantification of 
the terrestrial carbon parameters.
    I mentioned the North American Carbon Program, which is 
explained in a little bit more detail on page 6 of the 
testimony. This is a priority research program whose goals are 
to quantify the magnitudes and distributions of carbon sources 
and sinks for North America and adjacent oceans, to understand 
the processes controlling the sources and sink dynamics, to 
introduce consistent analyses of North American carbon budget, 
and explain regional and sectoral values of year-to-year 
variability.
    Another priority program noted on page 7 of the testimony 
is the Ocean Carbon and Climate Change [OCCC] Program. This 
effort is addressing how much atmospheric carbon dioxide is 
taken up by oceans at the present time and how climate change 
may affect the future behavior of the ocean carbon sink. The 
NACP and the OCCC Programs are synergistic and converge to 
address the dynamics of coastal oceans adjacent to North 
America and its land-sea margins.
    Another activity involves the Climate Change Science 
Program Synthesis and Assessment Product 2.2. It is noted on 
page 7 of the testimony. The Carbon Cycle Interagency Working 
Group sponsors this assessment on the State of the Carbon Cycle 
Report. It is under review now and is scheduled for release in 
March 2007.
    Mr. Issa. Excellent, Doctor. The remainder will be placed 
in the record, if that is all right with you.
    Dr. Dahlman. OK. Thank you very much.
    Mr. Issa. Thank you.
    [The prepared statement of Mr. Dahlman follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.034
    
    [GRAPHIC] [TIFF OMITTED] T5346.035
    
    [GRAPHIC] [TIFF OMITTED] T5346.036
    
    [GRAPHIC] [TIFF OMITTED] T5346.037
    
    [GRAPHIC] [TIFF OMITTED] T5346.038
    
    [GRAPHIC] [TIFF OMITTED] T5346.039
    
    [GRAPHIC] [TIFF OMITTED] T5346.040
    
    [GRAPHIC] [TIFF OMITTED] T5346.041
    
    [GRAPHIC] [TIFF OMITTED] T5346.042
    
    [GRAPHIC] [TIFF OMITTED] T5346.043
    
    [GRAPHIC] [TIFF OMITTED] T5346.044
    
    Mr. Issa. Mr. Eule.

                  STATEMENT OF STEPHEN D. EULE

    Mr. Eule. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today.
    The administration believes the most effective way to meet 
the challenge of climate change is through an agenda that 
promotes economic growth, provides energy security, reduces 
pollution, and mitigates greenhouse gas emissions. To meet 
these goals, the administration has established a comprehensive 
approach, major elements of which include policies and measures 
to slow the growth of greenhouse gas emissions, advancing 
climate change science--and you heard quite a bit about that 
from Dr. Dahlman--accelerating technology development, and 
promoting international collaboration.
    Since fiscal year 2001, the Federal Government has devoted 
nearly $29 billion to climate change programs. In 2002, 
President Bush set an ambitious but achievable goal to reduce 
the Nation's greenhouse gas intensity by 18 percent by 2012. To 
this end, the administration has implemented about 60 Federal 
programs, including voluntary programs, incentives, and 
mandates. Examples include Climate VISION, a program that works 
in partnership with 15 energy-intensive industry sectors 
represented by trade groups to reduce the greenhouse gas 
intensity of their operation. EPA's Climate Leaders and 
SmartWay Transport Partnership programs work with individual 
companies to achieve emissions reductions. USDA is using its 
conservation programs to provide incentives to increase 
terrestrial carbon sequestration, and the Department of 
Transportation has implemented a new fuel economy standard for 
light trucks and SUVs.
    The Energy Policy Act of 2005 also includes tax incentives 
and credits, $1.6 billion in fiscal year 2007 alone, for a 
range of clean energy technologies, and it mandates 15 new 
appliance efficiency standards and a 7.5 billion gallon 
renewable fuel requirement by 2012.
    Recent data suggests that we are well on our way toward 
meeting the President's intensity goal. While acting to slow 
the growth of greenhouse gas emissions in the near term, the 
United States is laying a strong technological foundation.
    The Climate Change Technology Program, or CCTP, is designed 
to coordinate and prioritize the Federal Government's 
investment in climate related technology, which was nearly $3 
billion in fiscal year 2006. CCTP's principal aim is to 
accelerate the development and lower the cost of advanced 
technologies that reduce, avoid, or sequester greenhouse gases. 
Last week, CCTP released its strategic plan, which revolves 
around six goals: reducing emissions from energy use and 
infrastructure, reducing emissions from energy supply, 
capturing and sequestering carbon dioxide, reducing emissions 
of non-carbon dioxide greenhouse gases, measuring and 
monitoring emissions, and bolstering contributions of basic 
science.
    Transportation and power generation are two obvious areas 
of research under this framework. The President has proposed 
about $1.7 billion over 5 years for his Hydrogen Fuel 
Initiative and FreedomCAR Program to develop hydrogen 
technologies. A transition to hydrogen over the next few 
decades could transform the Nation's energy system and increase 
our energy security by making better use of diverse domestic 
energy resources for hydrogen production.
    In his 2006 State of the Union Address, President Bush 
outlined plans for an Advanced Energy Initiative. AEI is 
designed to take advantage of technologies that, with a small 
push, could play a big role in reducing the use of foreign 
energy sources and lowering pollutant and CO<INF>2</INF> 
emissions. AEI includes significantly greater investments in 
solar and wind power, better battery and fuel cell technologies 
for pollution-free cars, cellulosic biorefining, near zero 
emission coal, and nuclear technologies.
    Our research into carbon capture and sequestration 
recognizes that for the foreseeable future fossil fuels will 
continue to be a low-cost form of energy. DOE's Sequestration 
Program is finding ways to capture and store CO<INF>2</INF> 
produced when these fuels, especially coal, are used. DOE 
supports a nationwide network of seven carbon sequestration 
regional partnerships that are working on determining the best 
approach for sequestration in their regions, as well as 
regulatory and infrastructure needs. Future Gen is a 10 year, 
$1 billion government industry collaboration, which now 
includes the governments of India and South Korea, to build the 
world's first near zero emissions coal-fired power plant. This 
project will integrate the latest technologies in carbon 
sequestration, oxygen and hydrogen separation membranes, 
turbines, fuel cells, and coal-to-hydrogen gasification.
    Looking further into the future, Next Generation nuclear 
energy and fusion energy systems offer tremendous potential as 
zero emission energy supply choices. The administration 
believes that well designed multilateral collaborations can 
leverage resources and quicken technology development. The 
International Partnership for the Hydrogen Economy, Carbon 
Sequestration Leadership Forum, Generation IV International 
Forum, Methane to Markets, all U.S. initiatives, and the 
International Thermonuclear Experimental Reactor [ITER] Fusion 
Project provide vehicles for international collaboration to 
advance these technologies.
    The new Global Nuclear Energy Partnership seeks to develop 
a worldwide consensus on approaches to expanding safe use of 
zero emission nuclear power. Through the Asia-Pacific 
Partnership, the United States is working with Australia, 
China, India, Japan, and South Korea to accelerate the uptake 
of clean technologies in this rapidly growing region of the 
world.
    These and other technologies we are developing today could 
1 day revolutionize energy systems and put us on the path to 
ensuring access to clean, affordable energy, while dramatically 
reducing greenhouse gas emissions.
    That concludes my statement. I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Eule follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.045
    
    [GRAPHIC] [TIFF OMITTED] T5346.046
    
    [GRAPHIC] [TIFF OMITTED] T5346.047
    
    [GRAPHIC] [TIFF OMITTED] T5346.048
    
    [GRAPHIC] [TIFF OMITTED] T5346.049
    
    [GRAPHIC] [TIFF OMITTED] T5346.050
    
    [GRAPHIC] [TIFF OMITTED] T5346.051
    
    [GRAPHIC] [TIFF OMITTED] T5346.052
    
    [GRAPHIC] [TIFF OMITTED] T5346.053
    
    [GRAPHIC] [TIFF OMITTED] T5346.054
    
    [GRAPHIC] [TIFF OMITTED] T5346.055
    
    [GRAPHIC] [TIFF OMITTED] T5346.056
    
    Mr. Issa. Thank you.
    Thank you all for your testimony. We will alternate between 
myself, the ranking member, and other Members as they arrive.
    I would like to just summarize what you all had to say, and 
I do this with my colleague here at my side, in the friendliest 
possible way.
    For an administration that denied the existence of global 
warming, that saw no problem whatsoever, according to the 
opening statements, you certainly have been busy, and I 
appreciate that. I will now go to the questions, because we are 
not here to give you credit for all that you have done, 
although you have done it. We are here to figure out, from an 
oversight perspective, what more could be done and what part 
Congress should play in it.
    Personally, looking at the United States consuming 25 
percent of the world's energy, producing 30 percent or so of 
the world's GDP, and putting out 22 percent of CO<INF>2</INF> 
emissions, one would say that, in the abstract, we are doing 
better than the world as a whole in each of those categories. I 
am concerned, though, that there is some level of 
CO<INF>2</INF> in the atmosphere that has to be achieved by the 
world and we have to be the leader of the world in that.
    I have been told that studies show that if we had raised 
our nuclear electricity production to the same level as France, 
about 80 percent, that it would have made us Kyoto compliant. 
This probably would have changed the dynamics that existed in 
the Senate in which 95+ Senators said they wouldn't vote for 
Kyoto, thus dooming it.
    Mr. Stephenson, what accounts for the greatest increase in 
climate change funding since 1993?
    Mr. Stephenson. If you adjust for inflation, technology is 
almost all of it.
    Mr. Issa. Has that been a good investment?
    Mr. Stephenson. We haven't analyzed it formally. We think 
that a two-pronged attack of emission reductions and technology 
for clean fuel, etc., is the right approach.
    Mr. Issa. In a perfect world, if sequestration cost no 
energy and we simply captured and stored CO<INF>2</INF>, with 
no downside other than storing a lot of crystals or other forms 
that would be stable, would you have concerns if we could 
achieve that?
    Mr. Stephenson. I am not a scientist, Mr. Chairman, but 
right now sequestration is not keeping up with emissions, so, 
in a perfect world, I guess that would be wonderful.
    Mr. Issa. So I will summarize and say we don't live in this 
perfect world, and we are going to have to do more than we are 
doing presently in the way of pumping CO<INF>2</INF> into empty 
oil wells.
    Mr. Stephenson. Exactly.
    Mr. Issa. I appreciate that.
    Mr. Eule, you mentioned the work on fusion. Now, I have an 
incredibly good staffer here, Joe, and I asked him when he was 
born, and he told me 1978, which just happens to be when a 
friend of mine, as a captain, joined my engineer unit. Prior to 
that he had been a detailee at Lawrence Livermore for 2 years, 
as a scientist working on a highly funded fusion project.
    From a practical standpoint, when we look at the dollars we 
put into fusion versus the dollars we are putting into Next 
Generation or high temperature nuclear reactors, wouldn't it be 
fair to say that we could have many reactors up and running for 
a fraction of the cost of what we put into fusion that, as of 
yet, has not yielded any benefits?
    Mr. Eule. That is a very difficult question to answer.
    Mr. Issa. That is why we ask them that way.
    Mr. Eule. Yes, I know.
    Mr. Issa. The leading question is one of our strong points.
    Mr. Eule. Right. I will say that fusion has potentially 
many benefits. It is a very high risk program, as you know. We 
are looking, I think, at a commercialization target of around 
2050, so it is really something, from the climate change 
perspective, that probably won't have an impact until the 
second half of the century.
    Having said that, it has attractive environmental safety 
features. There are no greenhouse gases, you don't have the 
waste problem, and fuel is readily available, so the potential 
is so great that I think it behooves us to invest in fusion.
    Now, having said that, I think the administration has 
committed large resources to nuclear power, and I don't have 
the figures in front of me, but I do know that our funding for 
nuclear power has increased tremendously over the past few 
years. So funding for nuclear power is increasing. I hate to 
think of this as a sort of robbing Peter to pay Paul type of 
situation because I think they are both valuable technologies 
and both have a role to play.
    Mr. Issa. Well, I will accept what you have to say because 
I am not here to cut long-term funding for fusion. I am 
concerned--and I think this committee, through many hearings 
during this Congress is concerned--that, in fact, getting to a 
hydrogen economy is virtually impossible if we cannot use a 
zero emission source.
    In previous hearings--and I think our next panel will deal 
with it a little bit--we were shown maps of what the world 
would look like if we tried to get a terawatt of power from 
wind. As much as I am a proponent of wind, I recognize that we 
would need wind turbines off every shore, in the middle of Lake 
Erie, Lake Michigan, Lake Superior, and absolutely all along 
the Pacific Coast in order to meet just our electric needs, 
separate from hydrogen. We are not going to get there by wind 
alone.
    Mr. Eule. I think you raise an excellent point. When you 
think about climate change, there are really two areas you have 
to think about: transportation and base load power. Nuclear, as 
a clean and emission-free energy option, is certainly one 
option we have to consider.
    Coal is one of the other emphases of the technology 
program. The United States, at current reserves and current 
recovery rates, has over 400 years of coal. From an energy 
security perspective, that is very valuable. The question is 
how do we use it in an environmentally friendly manner. One of 
the objectives of the Future Gen program is to be able to use 
that resource, use it where it doesn't have an impact on the 
climate. It would also be virtually pollution free.
    I think we have to look at not just nuclear, because coal 
has to play a role here as well. The trick, of course, is 
figuring out how to reduce the environmental impact of coal.
    Mr. Issa. You know, I could ask many more questions, but 
the ranking lady has been very patient, so we will go back and 
forth.
    Ms. Watson.
    Ms. Watson. Thank you so much.
    I will address this question to Mr. Eule. Why do you 
recommend that the Climate Change Technology Program be 
replaced with Climate Change Technology Initiative for the 
following years dealing with global warming? Give us the 
difference between the two. If one is better than the other, 
why do you deem CCTI more effective?
    Mr. Eule. I think you are referring to the NCCTI 
initiative, the National Climate Change Technology Initiative 
that was the Presidential----
    Ms. Watson. Yes.
    Mr. Eule. Yes. NCCTI is a subset of priority programs that 
were identified through the Climate Change Technology Program. 
The Climate Change Technology Program provides the overarching 
framework. Within that framework we have set some priorities, 
and those priorities are the NCCTI priorities that you are 
referring to. There are about a dozen of those and they are 
listed in Appendix B of the report.
    Through our interagency working groups, we have identified 
a subset of specific activities that we think should get 
priority treatment, and that is the explanation.
    Ms. Watson. Can you just give us a few of those?
    Mr. Eule. Oh, sure. I would be happy to.
    Ms. Watson. The ones that you feel are most important.
    Mr. Eule. Well, there are only 12 of them, and they are: 
hydrogen storage, low wind speed technology, solid state 
lighting, cellulosic biomass, transportation fuel cell systems, 
the Nuclear Hydrogen Initiative, the Advanced Fuel Cycle, 
Advanced Burner Reactor Program, Carbon Sequestration is a big 
one, IGCC, and in EPA we have the Methane Partnerships 
Initiative and the Climate Leaders Program. EPA has a lot of 
expertise in non-carbon dioxide greenhouses gases, so we have a 
couple of programs that deal with those as well.
    That is an overview of the NCCTI programs.
    Ms. Watson. If I may just ask another one, too. Is it true 
that under the former administration CCTI was less costly than 
the similar program CCTP under the Bush administration? Why was 
that one less costly?
    Mr. Eule. I am not familiar. If there really is an analog 
between the CCTP and anything that the Clinton administration 
had, I am not aware of any.
    Ms. Watson. Well, do you see the CCTI as more effective, 
considering the lesser amount of money used?
    Mr. Eule. We see the NCCTI initiatives as discreet 
priorities that if they received a little bit more funding 
could have a big impact on developing certain technologies that 
could significantly reduce greenhouse gas emissions, avoid 
those emissions, or sequester those emissions. So, again, it is 
a subset of priorities that we identified within the program we 
think deserve special recognition, primarily--especially--
during the budget process.
    Ms. Watson. Considering the weaknesses already in the CCTP 
draft strategic plan that are more than likely to appear in the 
final draft, why should billions of dollars be invested in a 
program that already seems to have some failing aspects to it?
    Mr. Eule. Well, I would disagree with that 
characterization. I think we have made an effort. There were 
shortcomings in the report when the first draft was released 
for public comment in September. I think we have done a very 
good job of addressing those concerns. We received about 280 
comments on the report, and through the interagency working 
groups we have done, I think, a pretty good job of examining 
those comments and changing the report where we thought it was 
wise to do so.
    I think the report that has come out is a much tighter 
report. In particular, we have laid out some goals of potential 
emission reductions for certain technologies at certain times 
when those technologies would have to be ready. So I think we 
have made an effort to improve the final document, and we think 
it is one that will aid the administration and we hope future 
administrations, as they struggle with these issues.
    I would note that with any first-of-a-kind document, it is 
not going to satisfy everyone, but the United States is the 
only country that I am aware of that has thought these issues 
through and come up with a strategic plan to deal with them.
    Ms. Watson. Well, just one more question, Mr. Chairman. The 
interagency working groups are composed of who?
    Mr. Eule. We have six of them. They are organized according 
to each strategic goal in the plan, and include fairly senior 
level people within the agencies that participate in CCTP. 
There are 10 agencies, and the Department of Energy leads the 
working groups on energy supply, energy use, and basic 
research. EPA leads the working group on non-CO<INF>2</INF> 
greenhouse gases.
    Ms. Watson. Do you go outside of the agency to bring in----
    Mr. Eule. Oh, yes.
    Ms. Watson [continuing]. Technicians, people who have 
experience, like working with universities and so on?
    Mr. Eule. Yes, that is a good question. We do bring in 
outside experts to review the portfolio. Last year, for 
example, we held six workshops where we brought in experts from 
the outside to examine the portfolio, again, according to the 
strategic goals that we set in the plan. They issued a report, 
and I think it is available on the Oak Ridge National Lab Web 
page, and we would be happy to get that for you.
    Ms. Watson. So there would be some opportunity for, not 
necessarily the general public, but people with expertise to 
review and maybe to add to your report?
    Mr. Eule. We consider this report a living document. We 
hope it is not going to change too much in the near future, but 
we see the report as largely the beginning of a dialog not only 
with the other agencies and governments, but with experts from 
the outside and the general public, so, yes.
    Ms. Watson. Thank you.
    Mr. Issa. Very good round. And I will be brief in my second 
round.
    Dr. Dahlman, as an old business man, the first question we 
always ask is what is our break even point. Do we have, today, 
the level of research to know where the break even point is? My 
understanding--the reason for the question--is that even our 
estimates of how much carbon we are emitting are inexact in 
many, many areas. Do we have it? If we don't have it, what 
tools are needed and what dollars are needed for those tools?
    Dr. Dahlman. I haven't really thought about the carbon 
cycle in terms of a break even point. Maybe I can attempt to 
answer your question in terms of the major components of the 
carbon cycle. The emissions component of the carbon cycle is 
quite well characterized, and I think Mr. Gregg Marland will be 
able to give you some statistics on that. The atmospheric 
CO<INF>2</INF> concentration is measured quite accurately, so 
we know that quantity.
    There are estimates of the amount of carbon that moves from 
the atmosphere into the ocean, and those estimates are pretty 
consistent, and they may be subject to some uncertainty. Where 
the largest uncertainty seems to be is the direct measurement 
of the carbon taken up by the terrestrial systems. That is 
where some of our priorities are and where investments are 
being focused, to understand those processes and quantities 
better.
    Now, once we have improved results from that research, then 
I think we are in a better position to state quantitatively how 
well the global carbon cycle is balanced.
    Is that getting at your question, sir?
    Mr. Issa. It is. Perhaps the way to put it, again, as a 
businessman, is if we assume that we stop putting more 
greenhouse gases--at least CO<INF>2</INF>--into the atmosphere 
if we do X, Y, and Z, and we look at the cost of each of the 
Xs, Ys, and Zs, whether it is continuing to use fossil fuels 
but reducing what gets released, or it is alternatives such as 
producing 80 percent of the world's electricity with nuclear 
instead of fossil fuels, what will we achieve? One of the 
frustrations is I don't see a model that says, OK, if we are 
willing to spend X, we can get, with current technology, to 
either a lower sink rate or break even at this price. Then you 
can start evaluating over the next 20 years how much of that 
you do with existing technology and how much you invest into 
technologies to drive down the cost.
    It appears as though everyone is looking at improvement, 
but no one is looking at break even. I, for one, have a hard 
time looking at a goal that is about doing better rather than 
doing enough, because I think the gentlelady would share this 
with me and I know my Governor in California would share this--
the goal is to quit warming up the Earth, if in fact we are 
causing it. We are not going to quit warming it up until we get 
to that zero point, and it doesn't appear, today, from 
everything that I read in the material in preparation, that we 
have really figured out the break-even point and then started 
quantifying the cost.
    So that is what I was hoping to get to. Trust me, Steve, 
you are next. [Laughter.]
    I asked you because I was hoping that, when you look at the 
carbon cycle, that at some point we think of cost/benefit and 
break even so that we can start quantifying it. Everything 
helps, but what helps the most for the least dollars?
    Dr. Dahlman. I think there are integrated assessment 
modeling approaches that consider the carbon cycle dynamics in 
relation to different energy emissions sources, and especially 
including the zero emission sources like nuclear power. Those 
analyses indicate that with a certain energy supply component 
that has a mix of different fossil technologies and non-fossil 
technologies, that the atmospheric CO<INF>2</INF> increase will 
reach certain levels within certain timeframes. Of course, 
these are scenario analyses, and you can----
    Mr. Issa. Right. These models tell us when we get to 
doomsday. What I want is how do we not get to doomsday.
    Dr. Dahlman. Well, as long as we continue with the present 
investment in fossil technology and those emissions, 
atmospheric CO<INF>2</INF> is going to increase. It will take a 
considerable tradeoff of non-fossil technologies to reach some 
stabilization point that is not damaging. What is the language 
that is used with the framework convention? Dangerous levels of 
CO<INF>2</INF>. Well, there is a lot of research trying to 
determine what that level is, sir, and much depends on what the 
mix of energy technologies will be for driving the country's 
and the world's economies in the future.
    Mr. Issa. OK, I will take that as as good an answer as 
exists, but you are a young man, I am sure we will have you 
back.
    Steve, I have to tell you I know you have been chomping at 
the bit, so please answer that question. I would like to then 
followup on the big question for you, and I am going to put 
this one in in advance, because even though I am the chairman, 
I have a clock too. The United States is responsible for 20 
percent of the world's annual carbon dioxide emissions. I was 
not a proponent of Kyoto for the following reason: China and 
India and other quickly developing nations were not part of it, 
so Kyoto would get to a zero net for developed nations while 
the world was not getting to a zero net.
    I want you to talk specifically about efforts that the 
United States can or is taking to help get the world to that 
not-yet-defined zero net. Where are the investments in China 
and India and other developing nations, so that we are not 
simply energy and pollution laundering having our products 
delivered with less efficient energy-wise and pollution-wise 
technologies.
    So those are the two questions, and I am done. All you have 
to do is talk until the gentlelady says your time is up.
    Mr. Eule. You may regret saying that, Chairman.
    With your permission, I am going to ask my colleague to 
bring up a couple of copies of the strategic plan because it 
gets to your question on cost.
    Mr. Issa. Thank you.
    Mr. Eule. I would direct your attention to the chart on 
page 42.
    Mr. Issa. I assume this is available on a multi DVD set.
    Mr. Eule. This is. But this is one of the most interesting 
figures in the report. I regret not having more copies 
available; they are being printed. On page 42 you see cost 
reductions associated with advanced technology scenarios 
compared to a baseline case without advanced technologies.
    Our whole reason for being in CCTP is to reduce the cost 
and expand the options available to policymakers to mitigate 
greenhouse gas emissions, and we have some very bright people 
in the Pacific Northwest National Lab that run some scenario 
analyses for us. We don't need to get into great detail on 
this, but you see that there is a very high constraint and it 
goes all the way over to a low constraint.
    I am sorry, can we--yes, Chapter 10, page 209 is a much 
clearer chart. I am sorry to do this.
    But, really, what this shows is the baseline cost of 
reducing emissions under a very high constraint case exceeds 
$250 trillion--that is cumulative--to 2100. If we are able to 
develop the advanced technologies we have in the portfolio, we 
think that we can reduce the cost by about 56 percent to 68 
percent with a very high constraint case over the coming 
century. As you can see, that rate stays pretty much the same. 
It actually grows a little bit as we move from the very high to 
the low constraint.
    The take away message from this chart is that with these 
advanced technologies, we can significantly reduce the cost of 
achieving the goals of the Framework Convention and our own 
goals. This is really what our program is all about, reducing 
the cost.
    When you consider carbon sequestration, for example, right 
now the cost to sequester a ton of carbon is about $100 a ton, 
roughly. The goal for the program is to reduce that to about 
$10 a ton. When you reduce sequestration to $10 a ton, it opens 
up a panoply of policy options that aren't available now. Even 
with a cap and trade system, if you consider that the highest 
cost for carbon in the European cap and trade system was the 
equivalent of about $40, that is not going to get you carbon 
sequestration at $100 a ton. At $10 a ton there is a whole host 
of policies that will do so.
    So I would recommend the chart on page 209 to your 
attention.
    To your other question, you raise an excellent point about 
the Kyoto protocol. Quite frankly, in the U.N. Framework 
Convention meetings that I have attended, the developing world 
has shown absolutely no interest in a specific constraint or 
target for greenhouse gas emissions. The Energy Information 
Administration is projecting that by 2010 non-OECD country 
emissions will surpass those from OECD country emissions.
    The United States believes that to get these countries 
engaged, you just can't talk about climate change. You have to 
talk about energy security and pollution reduction. We have 
launched the Asia-Pacific Partnership. It was formally launched 
in January of this year. It includes Australia, China, India, 
South Korea, and Japan and the United States, and we are 
working with those countries to help them achieve their own 
goals as far as improved energy efficiency, reducing pollution, 
and mitigating greenhouse gases. It is a small group of 
countries, but it represents about half the world's GDP, half 
the world's population, half the world's energy consumption, 
amd half the world's greenhouse gas emissions, so it is a huge 
group as far as those metrics go. It is small, very manageable, 
but we are working closely with them. We have eight task forces 
that have developed action plans in various areas such as power 
generation, steel, and aluminum, to name but a few. We are 
working closely with them, and we think that is going to have a 
huge impact because it tackles problems that those countries 
are interested in. They are more interested in energy security 
than they are in climate change, to be frank. So we are 
attacking all of those at the same time.
    Ms. Watson. I just need a little clarification. You mention 
the cost of those technologies relative to emissions. Can you 
give me a scenario that would help me to understand the cost 
factor? I know you gave a humongous amount in the trillions, 
but are we saying that the cost factor will determine what 
technologies are used? Expand on that, please.
    Mr. Eule. The point was that without advanced technologies 
the cost is tremendous. But if we are successful in developing 
the technologies that we have in the plan----
    Ms. Watson. That you have listed there, OK.
    Mr. Eule [continuing]. The cost goes down tremendously. 
Carbon sequestration is a good example, from $100 to $10 a ton 
to sequester carbon. It is a huge cost differential and it can 
really drive the technology and make it more acceptable in the 
marketplace. This applies not only to carbon sequestration, but 
to a whole host of energy technologies. The goal is to lower 
the cost. If we lower the cost for the technologies, you lower 
the cost for mitigation and you expand the range of policy 
options available to decisionmakers.
    Ms. Watson. We all are concerned about the emissions that 
we are letting off into our environment, and as we watch the 
aftermath of Katrina and listen to the scientists and the 
forecasters talk about the warming of the water and so on, my 
concern goes to what is the length of time it would take to be 
able to come out with some draft report as to what technologies 
you feel will lower the cost so that we could start addressing 
the rising emissions into our atmosphere? Just, you know, kind 
of a ballpark figure as to how long these various departments 
and groups are going to be working before they can suggest.
    Mr. Eule. You have raised a good point and it is a good 
question. In the plan we have timeframes where we think the 
technologies may be ready, and different technologies will have 
different timeframes. But let me give you a few examples.
    In the hydrogen program, for example, we are looking at 
developing the technologies to the point where business can 
make a go, no-go decision by 2015, and maybe start deploying 
these technologies in 2020. When you look at the Generation IV 
program, they are looking at Next Generation nuclear power in 
the 2020 to 2035 timeframe. I mentioned fusion, 2050 timeframe; 
sequestration maybe 2020. So we have a continuum of advanced 
technologies that could become available over the course of the 
century. I would say that as a companion to the strategic plan 
we have our Technology Options Report, which lists many of the 
technologies that are available today or that could be 
available through these R&D programs. That is available on our 
Web page, and we would be happy to share that with you.
    Mr. Watson. Well, I just want to mention a scenario in 
California. We are both from the State of California, and we 
have worked for 20 years plus to improve the quality of our air 
and our environment. I think we have done an awesome job, 
because we have cleaned up our air somewhat. However, I 
represented a district central to Los Angeles at that time, and 
they came in and they told the shops that cooked barbeque that 
you are going to have to reduce your emissions. Of course, they 
all came to me and said but you have to have the smoke, if you 
are going to have smoke, you know, and all that. And so they 
said you have to do something to retrofit your systems so it 
would stop emitting so much of the carbon and so on.
    So I heard the small shop owners complain about the cost 
and I heard our Cal-EPA say we have to set a time line and a 
cap if we are going to clean up the air. I could understand all 
that. So what I did was to initiate a bill that would allow the 
shop owners to be loaned money to borrow to be able to 
retrofit.
    You had 12 different study groups, I think you mentioned, 
and you mentioned the cost, and I am sure some will be more 
costly than others. We might want to then create a way of 
helping manufacturers and businesses, because the economy is a 
consideration. So I am hoping that as the study groups develop 
their reports, they will take into consideration not only the 
cost, but how we can meet that cost if we are going to have a 
real serious impact on our air quality and the emissions 
greenhouse gases.
    Mr. Eule. You raise a very good point. After you develop 
technologies, how do you deploy them?
    Ms. Watson. Yes.
    Mr. Eule. This is a key question, and I think a great 
example is in Title VI of the Energy Bill. I think that will do 
more to spur nuclear power in this country than a whole host of 
incentives, because it goes to a specific risk that owners and 
operators face, and that is regulatory risk that really can't 
be addressed in any other way.
    So I think you are right, we have to be creative in how we 
develop incentives to deploy these technologies, and that is 
something----
    Ms. Watson. We need a Marshall Plan for this particular 
battle.
    Thank you very much, Mr. Chairman.
    Mr. Issa. Thank you for giving so much credit to the full 
committee chairman for that title.
    I would like to thank you for all of your testimony. I 
would like to ask if you would mind taking some additional 
questions in writing to respond for the record.
    I would like to place on the record that the barbeque place 
that I go to uses only wood fire; therefore, it is 100 percent 
renewable energy. And I retain the right to continue having 
barbeque that is wood-fired.
    With that, we are going to recess for about 10 minutes and 
then take up the second panel. Thank you.
    [Recess.]
    Mr. Issa. OK, if we can all start making our way back to 
the seats.
    Thank you for all being patient as we went to other 
committees and back.
    We now have our second panel. You already have been sworn 
in, and I will do you all one favor and point out the map that 
I am so proud of. This is from a Berkeley professor we had 
earlier, who was kind enough to give us a comprehensive map of 
what it would take to get to one terawatt of wind power with 
today's technology. The good news is that the map gets us to 
one terawatt, so we are self sufficient. The bad news is that 
only the black areas are what we would consider today to be 
really first-class locations. But to get to our base electric 
load, this is what it would take. When I asked him one followup 
question, which was, is this based on the fact that the wind 
doesn't blow all the time? He said, oh, no, no, this is the 
total power. This doesn't guarantee you get it when you want 
it.
    With that, we announce our second panel. Dr. Marland, if 
you would go ahead. You have all been very good in the first 
panel on basically summarizing in 5 minutes. And, again, your 
entire statements will be placed in the record.
    Please go ahead, Doctor.

    STATEMENTS OF GREGG MARLAND, ECOSYSTEMS SCIENCE GROUP, 
ENVIRONMENTAL SCIENCES DIVISION, OAK RIDGE NATIONAL LABORATORY; 
STEVEN C. WOFSY, ABBOTT LAWRENCE ROTCH PROFESSOR OF ATMOSPHERIC 
AND ENVIRONMENTAL CHEMISTRY, HARVARD UNIVERSITY; AND DANIEL A. 
  LASHOF, SCIENCE DIRECTOR, CLIMATE CENTER, NATURAL RESOURCES 
                        DEFENSE COUNCIL

                   STATEMENT OF GREGG MARLAND

    Mr. Marland. I want to take 5 minutes to quickly consider 
three questions, and the three questions are: ``Which carbon?'' 
``How much carbon?'' And ``Whose carbon?''
    On the ``Which carbon?'' Let me just say I am going to talk 
mostly about emissions from fossil fuels. This is the principal 
human impact that is perturbing the global carbon cycle. While 
we focus mostly on the magnitude of the emissions, I just 
wanted to point out that there are other characteristics of the 
emissions that are important in a variety of ways. We know how 
the emissions change with time. They change annually or through 
the course of a year. They change through the course of a day. 
We know how it is distributed in space. We know, for example, 
that 95 percent of emissions occur in the Northern Hemisphere. 
We know that emissions that come from fossil fuels are not the 
same as the CO<INF>2</INF> that is already in the atmosphere.
    Wally Broker used to talk about red carbon and blue carbon, 
but the CO<INF>2</INF> that comes out of fossil fuels is 
recognizable by its carbon isotope signature, so it is clearly 
distinguishable from what mixes out of the ocean and what comes 
from volcanos, for example. We also know that when we are 
burning fossil fuels, as we put carbon dioxide into the air, we 
are taking oxygen out. All of these characteristics are 
important because they help us understand the details of the 
carbon cycle and they also help us to understand absolutely, 
without question, that the increase we are observing in the 
atmosphere is indeed due to fossil fuel burning.
    To move to the question, ``How much carbon?'' I think many 
people have in their minds that emissions from fossil fuel use 
are in the order of 6 billion to 6.5 billion metric tons per 
year. The truth is, our most recent estimates suggest that 2006 
is probably going to pass 8 billion metric tons. So the rate of 
increase is huge. The baseline for the Kyoto Protocol was 1990. 
It is likely that 2006 will be 28 percent above the 1990 value. 
Sorry, the 2005 value was 28 percent above the 1990 value. And 
the United States, in 2002, as has already been said, is 
roughly 22 percent, 23 percent of that.
    The other thing that I think is interesting--and I am going 
to blame Joe for this--we have this vision that we have been 
burning fossil fuels and the atmosphere has been accumulating 
CO<INF>2</INF> for a long time. But half of the total emissions 
of CO<INF>2</INF> have occurred in Joe's lifetime. He was born 
in 1978, you said, and the midpoint for the total that has been 
emitting now is in 1981, roughly. In the late 1970's we were 
worried about running out of energy, but we burned more fossil 
fuel since the late 1970's than we did before.
    Let me skip through some of the things that are clear in 
the written statement and say that the emissions from the U.S. 
amount to 5.4 tons of carbon per person per year in the United 
States. And if you compare that globally, we are running about 
five times the global average. This raises my third question, 
which is, ``Whose carbon?''
    There are movements in Europe, for example, that we should 
restrict carbon so that everybody is entitled to the same per 
capita emissions. But if you look in my testimony, there is a 
map of the United States which shows per capita emissions by 
State, and we have an order of magnitude difference between 
States in the United States. It is roughly 3 in California and 
35 in Wyoming, and it makes you realize there is something 
going on there other than us just being evil. It has to do 
ultimately with climate, population density, the structure of 
the economy, and access to resources. You start to ask whose 
carbon. When we do per capita emissions for the United States, 
what are we counting in a global economy? How is that related 
to what is happening in the United States, the profit that we 
are getting?
    I mentioned that there is this huge increase that has taken 
place from 1990 to 2005. In fact, if you go back and inventory 
that by country, almost half of it is in China. But some recent 
studies show that the best estimate is between 7 percent and 14 
percent of emissions from China are to produce goods that will 
be exported to the United States. If you look at the national 
inventory for Canada, 6.6 percent of greenhouse gas emissions 
from Canada are to produce, process, and transport oil and 
natural gas that will be used in the United States.
    So this whole idea of doing inventories, whether it is by 
State or community or even by country, is very complex. We are 
subdividing a global system into, again, my carbon and your 
carbon, and it becomes increasingly difficult to know really 
who should take credit for which.
    In that same context, let me add one final point. If we are 
talking about managing the carbon cycle, which we are, then 
this my carbon and your carbon becomes a very critical issue. 
And the last diagram in my written statement is just a quick 
diagram of what happens when you try to sequester carbon by 
going to no till agriculture, and the answer is you don't just 
sequester carbon. You can't understand what you have done by 
measuring the amount of carbon in the soil. It changes the fuel 
use, it changes fertilizer use, it changes, perhaps, crop 
productivity. And I think it is very important that, as we 
progress, we make sure that we look at the full systems and not 
just my carbon and your carbon.
    Thank you.
    [The prepared statement of Mr. Marland follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.057
    
    [GRAPHIC] [TIFF OMITTED] T5346.058
    
    [GRAPHIC] [TIFF OMITTED] T5346.059
    
    [GRAPHIC] [TIFF OMITTED] T5346.060
    
    [GRAPHIC] [TIFF OMITTED] T5346.061
    
    [GRAPHIC] [TIFF OMITTED] T5346.062
    
    [GRAPHIC] [TIFF OMITTED] T5346.063
    
    [GRAPHIC] [TIFF OMITTED] T5346.064
    
    [GRAPHIC] [TIFF OMITTED] T5346.065
    
    [GRAPHIC] [TIFF OMITTED] T5346.066
    
    [GRAPHIC] [TIFF OMITTED] T5346.067
    
    [GRAPHIC] [TIFF OMITTED] T5346.068
    
    [GRAPHIC] [TIFF OMITTED] T5346.069
    
    [GRAPHIC] [TIFF OMITTED] T5346.070
    
    [GRAPHIC] [TIFF OMITTED] T5346.071
    
    [GRAPHIC] [TIFF OMITTED] T5346.072
    
    [GRAPHIC] [TIFF OMITTED] T5346.073
    
    [GRAPHIC] [TIFF OMITTED] T5346.074
    
    [GRAPHIC] [TIFF OMITTED] T5346.075
    
    Mr. Issa. Thank you.
    Dr. Wofsy.

                  STATEMENT OF STEVEN C. WOFSY

    Mr. Wofsy. I would like to thank you very much for inviting 
me here, and I have actually got some visual aids which are 
intended to establish my position as the class geek among the 
six that have testified here.
    I am going to address one question only. There are several 
things addressed in my testimony that I will not deal with. For 
example, some of the scientific issues about measuring, such as 
how do we measure the total amount of carbon coming from North 
America and from the United States? I think this is a very 
important question, but I won't bear on that in my oral 
testimony.
    I am going to address the question of the land sink for 
CO<INF>2</INF>. As we will see from this chart, which is also 
Table 1A in my written testimony, if you just look down that 
middle column, in North America we released 1,640 megatons, or 
1.6 gigatons of carbon annually, on average, during the 
previous decade. About 35 percent of that is actually taken up 
by the land biosphere here in the United States and Canada. 
Very little, actually, in Mexico. So why is that and what role 
might that play in managing the carbon?
    Why is it happening? It is happening because during the 
18th and 19th centuries, the first part of the 20th century, we 
released a lot of carbon to the atmosphere by cutting down the 
forests and plowing the prairies and doing all that good stuff 
that we did. However, due to the intensification of agriculture 
and a number of other factors, including forestry and a bunch 
of other things like that, a lot of forests are regrowing where 
they had been before, and those forests are taking out a lot of 
carbon from the atmosphere, so what used to be a source is now 
a sink for carbon.
    If you think about what is happening out there and you look 
at detail--we have a lot of scientific research, a lot of it 
supported by the DOE, actually, which examines what the forests 
are actually doing and why they are doing it, sort of on an 
ecological basis--what you find out is that one could manage 
the forests and other lands, range lands and crop lands, to 
increase carbon storage. You could do that in a very 
interesting way. You could do it in such a way that the costs 
involved were either not costs, you made money doing it, or you 
could do it in a marginal cost basis, for example, by 
incentivizing people to lengthen the rotation of timber 
harvests. A company has a forest growing and they wish to 
harvest it. If they wait, they pay an opportunity cost for the 
money, but they get a bigger crop. So that is one way that you 
can actually work on marginal costs. It is actually a very 
interesting option.
    There is a risk, of course, that if you sequester carbon in 
ecosystems, that carbon can come back to you later through 
climate change, killing off the forest, or through people 
deciding that it was time to build a subdivision there or 
whatever----
    Mr. Issa. Or a California forest fire.
    Mr. Wofsy. Well, the forest fires are actually a very 
interesting part of this. We could talk about that later. That 
is not unrelated to climate issues and also to other things 
like previous fire suppression in areas where fire is a normal 
part of the ecology. If you get more fuel, some bad things can 
happen, that is exactly right.
    I am going to pass over the next several slides, and I 
would like to end, actually, with the one which is now way to 
the end of the thing, past where it says the end and go to 
where it says Figure 3. This is a result of research actually 
that we did at the Harvard Forest in central Massachusetts over 
the last 15 years as part of the Department of Energy AmeriFlux 
network. This is a complicated graph, so we are going to look 
at the top panel of the graph. What you see there is a line 
that shows how much carbon is taken out of the atmosphere for 
each hectare of land in the Harvard Forest. A negative means 
taking it out of the atmosphere. You may notice that the line 
is drifting more negative. In fact, in the last 5 years, 
Harvard Forest has taken out twice as much carbon per year from 
the atmosphere as it did in the first 5 years of the study, in 
the early 1990's. This is a very, very big surprise, and it 
looks like other sites in the AmeriFlux network are showing the 
same thing. One of the things we are going to want to do is to 
understand that.
    It certainly is telling us--if I may wrap up--that the 
possibility of using sequestration in ecosystems could and 
should be part of the solution to this problem. There isn't, as 
you pointed out in your briefing document, there is not one 
solution to this problem. One of the nice things about this is 
that, unlike nuclear energy, this is working today on an 
enhanced basis. It is bigger now than it was 10 years ago. That 
is not true for the nuclear industry. So we have something that 
is actually responding quickly. Maybe it won't last as long. It 
is not clear how long this will go on, and it is not clear 
even, really, why it is happening. We need more scientific 
research to learn about that.
    That is where I will end and take any questions. Thank you.
    [The prepared statement of Mr. Wofsy follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.076
    
    [GRAPHIC] [TIFF OMITTED] T5346.077
    
    [GRAPHIC] [TIFF OMITTED] T5346.078
    
    [GRAPHIC] [TIFF OMITTED] T5346.079
    
    [GRAPHIC] [TIFF OMITTED] T5346.080
    
    [GRAPHIC] [TIFF OMITTED] T5346.081
    
    [GRAPHIC] [TIFF OMITTED] T5346.082
    
    [GRAPHIC] [TIFF OMITTED] T5346.083
    
    [GRAPHIC] [TIFF OMITTED] T5346.084
    
    [GRAPHIC] [TIFF OMITTED] T5346.085
    
    [GRAPHIC] [TIFF OMITTED] T5346.086
    
    Mr. Issa. Thank you.
    Dr. Lashof.

               STATEMENT OF DR. DANIEL A. LASHOF

    Mr. Lashof. Thank you.
    It is a pleasure to be before this committee led by two 
Californians, where I did my dissertation research on the 
carbon cycle a few years ago at the University of California. I 
would like to make five points today with the help of a few 
slides as well. I will cover the five points quickly and then 
go back and explain them.
    First, the carbon cycle has never been as far out of 
balance as it is today, so the title you have given this 
hearing is very apt. We need to act to rebalance it. Second, 
because of that, the amount of carbon dioxide in the atmosphere 
is higher than it has been in at least 650,000 years, and the 
amount is continuing to rise rapidly. Third, the imbalance in 
the carbon cycle has thrown the Earth's energy balance out of 
wack and that is causing dangerous global warming which 
threatens our environment, health, and economy. Fourth, we can 
rebalance the carbon cycle in time to prevent the most 
dangerous effects of global warming, but we are running out of 
time to do that, and we are running out of time very quickly. 
Fifth, only an enforceable limit on global warming and 
pollution, in my view, can drive the market for clean 
technologies fast enough to get the job done in time.
    So let me explain those points in the few minutes that I 
have.
    In the next slide I show a very simplified picture of the 
carbon cycle. This may be a little bit out of date. Gregg just 
told us that current emissions are maybe closer to 8 billion 
tons. But the basic picture here is that when we burn fossil 
fuels--coal, oil, natural gas--we are putting 7 billion to 8 
billion tons of carbon into the atmosphere. About 3 billion 
tons of that is being removed by forests, other biological 
systems, and the oceans. That means there is 4 billion tons 
left, and that translates into a two part per million increase 
in CO<INF>2</INF> in the atmosphere.
    If you look at the next slide, that is what we are seeing. 
This is the actual record of CO<INF>2</INF> in the atmosphere 
since 1958. And what we know from this and other data is that 
we now have over 380 parts per million in the atmosphere. That 
is more, as I said, than we have seen in over 650,000 years, 
and the growth rate has accelerated in the last few years. 
Three out of the last 4 years have seen an increase of two 
parts per million or more. As I said, that extra CO<INF>2</INF> 
in the atmosphere is trapping heat, driving global warming and 
causing a whole range of consequences that we are really 
beginning to see. To name a few, we are experiencing more 
severe hurricanes as ocean temperatures rise, more severe 
droughts and wildfires, and, as you mentioned, Mr. Chairman, 
particularly in the Western United States, as mountain snow 
pack declines and the higher temperatures increase evaporation 
rates, increased risk of fire, coastal flooding and innundation 
as ice sheets and glaciers melt, and more deaths from severe 
heat waves, particularly in our urban areas.
    To get to the fourth point, we are running out of time to 
stop this.
    Here is our choice. If we start cutting emissions in the 
United States now, and work with other countries using our 
leadership to leverage them to take similar action, we can 
rebalance the carbon cycle in time to avoid the most dangerous 
consequences of global warming, and we can do it at a pace that 
is gradual enough that we can afford to do it. In this curve, 
we ramp up to about a 3 percent per year reduction in 
CO<INF>2</INF> emissions. This goes to the question you asked 
to the previous panel. This is the kind of reduction that we 
need to do to solve the problem, not just to reduce how bad it 
is. Eventually, if we keep doing that, we can reduce the 
emissions of carbon dioxide to the level where the emissions 
are equal to the removals and then we have balanced it out. We 
think there is growing evidence that we need to do that at no 
higher than about 450 parts per million in the atmosphere. We 
are at 380 today. That means we have to get started right away.
    A paper that Jim Hansen headed at NASA Goddard Institute of 
Space Science, published just yesterday, argues that we have no 
more than 10 years to turn the corner on CO<INF>2</INF> 
emissions if we are going to get where we need to go.
    So let me get to my last point. The technologies are 
available today to get this job done, and here is a portfolio 
of technologies. They are described in more detail in the 
September issue of ``Scientific American,'' which we have made 
available to all the Members of the House. We can get started 
with the technologies that we have now.
    There is no question that additional technology development 
will help us do this more cost effectively, but here is the 
irony: the administration is calling for a big government 
technology R&D program with no assurance that this technology 
will actually be used to reduce carbon dioxide emissions. 
Supporters of global warming emission limits have united behind 
a market-based solution that would put a cap on the total 
emissions of carbon dioxide and let market-based trading figure 
out the most efficient way of achieving that cap. Without that 
kind of cap that would drive the private sector investments in 
deploying these technologies to reduce emissions, all the R&D 
in the world won't solve this problem.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lashof follows:]

    [GRAPHIC] [TIFF OMITTED] T5346.087
    
    [GRAPHIC] [TIFF OMITTED] T5346.088
    
    [GRAPHIC] [TIFF OMITTED] T5346.089
    
    [GRAPHIC] [TIFF OMITTED] T5346.090
    
    [GRAPHIC] [TIFF OMITTED] T5346.091
    
    [GRAPHIC] [TIFF OMITTED] T5346.092
    
    [GRAPHIC] [TIFF OMITTED] T5346.093
    
    [GRAPHIC] [TIFF OMITTED] T5346.094
    
    [GRAPHIC] [TIFF OMITTED] T5346.095
    
    [GRAPHIC] [TIFF OMITTED] T5346.096
    
    [GRAPHIC] [TIFF OMITTED] T5346.097
    
    [GRAPHIC] [TIFF OMITTED] T5346.098
    
    [GRAPHIC] [TIFF OMITTED] T5346.099
    
    [GRAPHIC] [TIFF OMITTED] T5346.100
    
    [GRAPHIC] [TIFF OMITTED] T5346.101
    
    [GRAPHIC] [TIFF OMITTED] T5346.102
    
    [GRAPHIC] [TIFF OMITTED] T5346.103
    
    [GRAPHIC] [TIFF OMITTED] T5346.104
    
    [GRAPHIC] [TIFF OMITTED] T5346.105
    
    Mr. Issa. Thank you.
    And if the gentlelady is not back by the end of my 
questioning, we may take a short recess, with your indulgence. 
She has been tied up at International Relations. Welcome to the 
end of a Congress.
    Dr. Wofsy, let me just ask about missing carbon. I find 
missing carbon to be an amazing subject, because I have always 
asked myself a question: As carbon levels rise, does the Earth 
begin to deal with the higher level of carbons in some 
affirmative way? As a result, if we find out about missing 
carbon, do we, at the same time, change all of our curves about 
the growth in temperature and the growth of greater emissions? 
Is there a stabilizing point?
    Mr. Wofsy. We are learning more about that over the last 10 
years. A lot of progress has been made. I wish I could be more 
encouraging. The ocean's capacity to take up carbon does appear 
to be decreasing gradually with time, which is actually what 
would be forecast based on simple chemistry. The fertilization, 
if you want to call it, of the land biosphere by CO<INF>2</INF> 
is a phenomenon. If you grow plants in a chamber that has more 
CO<INF>2</INF> than the current atmosphere, they tend to grow 
faster, and some of them do. But the capability of that to 
actually stimulate storage of carbon appears to be lower than 
one might have hoped. It is not zero, but it does not seem to 
be something that is going to save us.
    So I believe the answer is that some of this increase in 
the uptake of CO<INF>2</INF> that we saw at Harvard Forest, for 
example, could be due to increasing concentrations of 
CO<INF>2</INF>. We don't think that is most of it, but that is 
still an area of active scientific research. I would say that 
anybody who wanted to rely on this kind of greening of the 
Earth would be ill advised to do so. It is a factor, but it is 
not going to save us.
    Mr. Issa. Thank you.
    Dr. Marland, could you put the wedge slide back up, if you 
would, please? I think you are familiar with it.
    This is a slide of the United States. If we reduce 
emissions as called for in this slide and the world does 
nothing, what will be the effect on global carbon?
    Mr. Marland. It is basically an economics question, and I 
am not an economist. But there are some analyses, and it starts 
to come up in Europe now when you are interested in 
electricity. When you start to do that in some small number of 
countries, then things start to move around between countries. 
I have been intrigued, for example, that wood chips are now 
harvested in Canada from forests and they are shipped to Europe 
because there are incentives in Europe to bring down 
CO<INF>2</INF> emissions locally. Now, logically, it makes more 
sense to use the wood chips closer to home to replace fossil 
fuels in Canada. But the economic situation has been arranged, 
and the set of incentives are in place in Europe, so it becomes 
economically profitable to ship wood chips to Europe.
    Mr. Issa. A trade distorting subsidy, pray tell?
    Mr. Marland. Well, we have a global system. I talk about my 
carbon and your carbon and our carbon. It is my carbon and your 
carbon when we burn the fuel, but in the atmosphere it is our 
carbon. Somehow there has to be cooperative arrangements so 
that the objective is our carbon. The objective is not my 
carbon or your carbon, it is our carbon, and there has to be 
some kind of a systematic way of addressing the whole system 
rather than subsets thereof.
    Mr. Issa. Excellent.
    Dr. Lashof, I am going to ask you two questions about this 
slide. One is a followup on what I asked Dr. Marland, which is 
if I read correctly this slide, if we were to do all of these 
things--and, by the way, I am a supporter of doing all of these 
things--the reduction would not equal the increase over the 
same period of time that we expect from China alone. I would 
like you to comment on that, because I want to be a good world 
player, but we can't be a world player in a vacuum. We have to 
bring the entire biosphere with us.
    Second, along with this chart, my biggest question, my 
biggest concern is I see no nuclear in it, even though we had 
the founder of Greenpeace telling us that nuclear is critical 
to the foreseeable future's sustainable atmosphere.
    Mr. Lashof. I will try to address both those questions.
    The specific quantitative comparison that you asked about I 
am not sure how those numbers work out. I mean, the United 
States is still the largest source of carbon dioxide emissions 
worldwide. People focus on China's growth, which is absolutely 
stunning and obviously a big problem. This chart is intended to 
be the U.S. contribution to a global effort. There is no 
question you have to bring the rest of the world along. There 
is some argument about how you do that. I believe the United 
States has to show leadership. We have to make commitments. 
Governor Schwarzenegger believes that as well, obviously, in 
signing the legislation today.
    Mr. Issa. Isn't it great to have all Californians here? 
Even your education.
    Mr. Lashof. I love it. It is a great day, actually, in my 
view. The Governor's signature on an Assembly Bill 32, would 
clearly put California in a leadership role. He knows that 
California, by itself, can't solve the global warming problem, 
but California leadership will, I believe, lead to U.S. 
leadership. U.S. leadership has to lead to a worldwide 
solution. I should say we certainly have a lot of work to do 
particularly with China and India, which have a lot of coal and 
are growing rapidly, but we certainly wouldn't be alone. The 
other countries in Europe, as well as Japan, are making 
significant investments in reducing their emissions of global 
warming pollution, so it is not like the United States is 
stepping out all by itself.
    I have just one more point about this figure. It appears on 
page 57 of the Scientific American of this month. The previous 
page actually shows how it fits in to a global framework, and I 
will bring that to you so you can see that.
    With respect to your other question about nuclear power, I 
did construct this portfolio without including a contribution 
from expanded nuclear power in the United States. I did that 
for several reasons. One is that I believe there are ongoing 
issues in terms of the cost, waste disposal, and proliferation 
from nuclear power that may make it difficult or impossible to 
greatly expand nuclear power in an acceptable way in the United 
States and around the world.
    Second, I did it intentionally because I think there has 
been a lot of claims that it is impossible to deal with global 
warming without nuclear power. I wanted to show that it is 
possible. Nuclear is one option, no question about it, because 
it produces electricity withoutgenerating CO<INF>2</INF>. It 
could make a contribution, and in the original wedges diagram 
that Professor Sokolow developed, nuclear is one of the 15 
options that he puts forward, no question. But I wanted to make 
the point that if it doesn't pan out, if we can't address those 
issues which are challenging, in my view, there is still a way 
to get to where we need to go.
    Mr. Issa. Thank you.
    I wouldn't be a Member of Congress if I didn't note that in 
my home district, in San Diego, some of the technologies that 
have been developed have near zero residue and have the 
additional ability to burn--let me rephrase, to consume 
plutonium for the purposes of creation of electricity. So I 
often bring that up simply because the idea that we would take 
the weapons grade leftovers of the cold war and turn them into 
electricity to me is too intriguing not to invest at least in 
that. Perhaps we could also invest in reprocessing a dramatic 
portion of what now is planned to be put in Yucca Mountain, 
which I certainly would agree with.
    I asked the previous panel this question, I will ask each 
of you the same question. There are clearly a lot of 
uncertainties, both in the testimony and in the answers to 
questions earlier, about the carbon cycle, exactly what it is, 
perhaps even my businesslike question about where the break 
even is, and so on. One, is there sufficient research, knowing 
that perhaps there never is? But at least is the level of 
research somewhat the magnitude that it should be? If not, 
where would you each say the biggest gaps are in that funding? 
If you had the power of the purse, as this body does, where 
would you make the biggest additional contributions?
    Dr. Marland. You can go in any order.
    Mr. Marland. It is a tough question, of course, and that is 
why you are asking it.
    Mr. Issa. And you all may revise and extend, so you only 
have to start here, and then we will let you go on.
    Mr. Marland. We had reference here to Rob Sokolow and his 
paper in ``Scientific American.'' Some months ago, in another 
article on carbon capture and storage, he starts out with the 
very nice statement: ``If there were an easy answer, we would 
be doing it.'' That represents a faith in humanity, but I agree 
with that. If there were an easy answer, we would be doing it. 
You know, once we found substitutes for the freons, it was 
easier to address the hole in the ozone layer. So you pay a few 
bucks and you solve the problem. I don't think that is true in 
global change. It is fundamental to our society.
    But I think at the core of it there is population. I was 
startled the other day to realize that the population on the 
Earth is three times what it was when I was born. That is an 
astonishing number. No matter what we do, as the population 
grows, there are huge numbers of us, and as long as you have 
money, you spend it, and whatever you spend it on has energy 
implications. If you don't spend money on this, you spend it on 
something else. And the worst thing you can do with your money 
is burn coal.
    But my sense is, if you have money, what you should spend 
it on is for things that are not energy intensive and beautify 
life. You should buy original art and concert tickets, you 
know? But any time, if you don't work and you go out on your 
boat on the lake, you are----
    Mr. Issa. Please, let it be a sailboat.
    Mr. Marland. Yes. Exactly right. It is really very tough.
    The research question, I think we really don't understand 
the climate system still. I have been intrigued with this idea 
of managing the land surface, but the land surface impacts the 
climate in multiple ways, it is not just through the carbon 
budget. We affect the water budget. We affect the reflected 
radiation. If we plant trees, do we change the albedo of the 
surface? Are we doing something else besides affecting the 
carbon budget?
    So I think there is a great deal to be understood yet on 
the full climate system and how changes in the land surface, 
changes in the distribution of activities, and changes in 
urbanization ultimately affect the climate system in ways other 
than through the carbon budget.
    Mr. Issa. Thank you. If this were McLaughlin, I would say 
and your answer is people.
    Mr. Wofsy. So if I understood the answer that Mr. 
Stephenson gave to you, research in this area, scientific 
research has basically been level funded in constant dollars 
for 15 years or 13 years, whatever his baseline number was. I 
think we are going to need to fix that. The issues that we need 
to deal with, I believe, are very much the ones that Gregg 
talked about. So if you think about the terrestrial ecosystem, 
which is the one I was talking about, currently they are 
removing around 30 percent of the CO<INF>2</INF> that we emit. 
In a future climate, they could turn around and introduce 30 
percent. They could go from minus 30 to plus 30. We really 
don't have a good understanding of that.
    We have done an awful lot of planning for various 
scientific programs to examine some of these questions, and I 
would really love to see some of these plans given priority and 
move forward. So the last thing I would say is if you could 
startup a new research program that learned how to de-
politicize this question and turn it into a question that 
people just dealt with on its merits, that would really be 
worth doing too. I have no idea how to do that, but you are in 
the business, maybe you know how to do it.
    Mr. Issa. It is a shame the ranking member isn't here so 
when I say after I win re-election, return as the chairman of 
this subcommittee again, we will be able to do that, so that 
she could at least look at me with the broad smile that says 
no, no, we are switching chairs. So, clearly, an election being 
immediately behind you does give you that opportunity. Whatever 
we are doing here on a bipartisan basis I suspect we will do 
even more bipartisan in the first stage of a new Congress, no 
matter who has this chair.
    Did you have a comment also?
    Mr. Lashof. Yes, Mr. Chairman. I guess I would make three 
points. First, I would say I think we know enough to know that 
we have to reduce the emissions of CO<INF>2</INF> from fossil 
fuels by at least 60 percent if we are going to reach the break 
even point that you mentioned. There are important 
uncertainties about the carbon cycle, but if emissions from 
fossil fuel combustion continue to grow at the pace that they 
have been growing, a business-as-usual kind of course, then 
those opportunities fundamentally are irrelevant because all of 
the natural removal processes get overwhelmed by those 
emissions. So those uncertainties remain interesting 
scientifically, but they are not going to matter very much from 
a policy perspective.
    Having said that, I do think it is important to continue to 
invest in our research in this area, and I would suggest two 
areas that deserve more attention. One, Steve Wofsy just 
suggested, which is that there is this very significant risk of 
what we call positive feedbacks in the system. As global 
warming occurs and causes more forest fires, for example, 
CO<INF>2</INF> is put back into the atmosphere. As permafrost 
melts, CO<INF>2</INF> and methane can go into the atmosphere 
and then that causes more warming. We know that over a 
geological timeframe, those kinds of feedbacks have been 
important. We really don't know how significant they could be 
over the next decades to a century, and we really need to pay 
more attention to that.
    The second area I would say is we need to do a better job 
and have a more focused effort to reconcile our estimates of 
how much carbon the forests of North America are taking up 
between two different approaches. We basically look at this 
question in two ways. One is we can look at the concentration 
of CO<INF>2</INF> in the atmosphere and the pattern of that 
concentration, and look at some of the details of isotopes and 
infer what the sinks are by knowing where the emissions are 
coming from and looking at some of these concentration numbers. 
The other way is sort of the traditional forest inventory: you 
go out on the landscape and you measure the diameter of trees 
at breast height and try to calculate it, add it up from the 
group up. So there are bottom-up and top-down approaches. They 
tend to lead to different results. There has been some 
improvement in that reconciliation, but when the carbon cycle 
assessment says that the estimate is still uncertain by a 
factor of two about how much total carbon is being absorbed in 
the forests of North America, it is because we haven't achieved 
that reconciliation. So I think that is an important area.
    Mr. Issa. Thank you.
    I guess we have spurned more comments. Yes, in the order in 
which the fingers were raised. Gregg.
    Mr. Marland. In the first go-around I ignored your question 
about the break even business issue, and I would just like to 
come back to that very quickly, because there are a variety of 
scenarios that have been run with carbon cycle models. You can 
ask, if we would like the carbon concentration in the 
atmosphere to go no higher than 550 parts per million, what 
does the future emissions trajectory have to look like? If we 
want to go no higher than 450, what does it have to look like? 
The answer really is not unlike this diagram that Dan has 
shown, the green area.
    If we want a stabilization at maybe 550, we have to take 
this kind of a path. But if we emit a pulse of carbon dioxide 
into the atmosphere, what the carbon cycle does is redistribute 
that, and ultimately a large portion of it is going to end up 
in the ocean, but it takes time. It is never going to go, well, 
in human time scales it is not going to go away. If we put 
extra CO<INF>2</INF> into the atmosphere, it redistributes 
amongst the ocean, the biosphere. It takes time to do that, but 
it is going to relax down. But presumably we can prevent it 
from going over some number like 550 by implementing something 
that would maintain the fossil fuel use in the shape something 
like what Dan shows here in the green. There are numeric 
solutions, as best we understand the carbon cycle, to show what 
that path looks like.
    Mr. Issa. Dr. Wofsy.
    Mr. Wofsy. Just a brief comment. I am very glad that Dan 
brought up this question about the top-down and bottom-up, 
which I deal with at length in my written testimony . I just 
wanted to point out that in addition to filling in a place on 
the table, that is one of the key tools, if we can develop it 
scientifically, to understand how this system will respond to 
climate change and how we can expect it to behave going 
forward.
    Mr. Issa. Thank you.
    And I would like to thank this panel, in addition to the 
first panel, for a very informative hearing. The gentlelady, 
the ranking lady, was not able to return, she has been tied up 
elsewhere, and I would ask that each of you be willing to 
respond to hers and other questions in writing. We will leave 
the record open for 2 weeks past your answers to any questions 
submitted to you.
    I want to close by summarizing, if I may, because I think 
it is very important. This is the end of a Congress. This is 
the end of a number of hearings that we have held on energy and 
climate, and I think, with the work that you have done and some 
of the earlier hearings, you have made a couple of clear points 
I would like to make for the record.
    One is that population is a factor that has to be 
considered. I am not just referring to population growth, but 
the populations of the Third World that presently consume 
dramatically less energy than they are likely to consume as 
they reach an equilibrium with the rest of the developed world.
    Two, although we have put a lot of money into research, it 
is clear here today and throughout the Congress that research 
has been insufficient to give us the answers to critical 
questions, including where the carbon all comes from, how we 
absorb it, and one that was not mentioned, but that is of 
critical concern, at least to the Chair. That is, is there a 
tipping point and where is it? Have we already reached it? Is 
it ahead of us? Is it behind us? Is it 550 parts per million or 
is it perhaps 480? We are not looking at that as a point at 
which, even if we do everything, the Earth will begin working 
against us in order to reach that point.
    I think, Steve, you did a good job of talking about what 
some of the factors that can trigger a reversal in the 
absorption rate.
    Last is action. I want to note that although I would 
clearly very much insist that nuclear be part of the solution, 
because it is an action we can take today in addition to every 
one of these others, and it is a definable action that we can 
measure with far greater impact than any of these that take out 
until 2056. But having said that, for this subcommittee on a 
bipartisan basis, at the end of the Congress, all actions must 
be taken. That includes very much the next Congress doing more 
to ensure a reduction in greenhouse emissions, a reduction in 
fossil fuel consumption, at least on a per GDP basis.
    I don't think I can begin to summarize the work of 2 years, 
but I want to thank all of you for being here in the last 
hearing before the election and the last hearing probably on 
this subject. I will take a liberty, on behalf of the two 
Californians that were here today, and thank you and thank 
Governor Arnold Schwarzenegger for taking the lead in bringing 
up the importance of the carbon cycle and the recognition that 
as goes California, so goes the Nation; as goes United States, 
so goes the world.
    And, with that, we stand adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5346.106

[GRAPHIC] [TIFF OMITTED] T5346.107

[GRAPHIC] [TIFF OMITTED] T5346.108

                                 <all>

</pre></body></html>
